HHS/OIG-Audit--"Review of Arkansas Department of Human Services' Reimbursement
for Clinical Laboratory Services Under the Medicaid Program, (A-06-96-00002)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Arkansas Department of Human Services' Reimbursement for Clinical
Laboratory Services Under the Medicaid Program," (A-06-96-00002)
July 12, 1996
Complete
Text of Report is available in PDF format (1.2 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of Arkansas Department of Human
Services' (State agency) reimbursement for clinical laboratory services under the
Medicaid program. The objective of our review was to determine the adequacy of
procedures and controls over the processing of Medicaid payments to providers for
clinical laboratory tests. Our review was limited to clinical laboratory services
involving chemistry, hematology, and urinalysis tests.
The State agency allowed excessive reimbursements for (1) chemistry and urinalysis
tests that should have been bundled into a panel for payment and (2) duplicate
payments of hematology and urinalysis tests. Controls were not effective in detecting
unallowable claims for laboratory tests that should have been claimed as one test
and duplicated claims. The State agency did not have procedures or controls in
place in its claims processing system that would identify and reject these types
of overpayments.
We randomly selected 150 claims with potential payment errors from a population
of calendar years (Cys) 1993 and 1994 paid claims valued at $497,625. Of the 150
sampled items, 105 were overpaid. Each represented a potential payment error in
which the State agency paid a provider for clinical laboratory tests on an individual
test basis instead of as part of a group, or were duplicative of each other. Projecting
the results of our statistical sample over the population using standard statistical
methods, we estimate that the State agency overpaid providers $167,162 for chemistry,
hematology and urinalysis tests. At the 90 percent confidence level, the precision
of this estimate is plus or minus 28.74 percent.